                                                                 U.S. Department of Justice

                                                    Michael J. Sullivan
                                                              United States Attorney
                                                    District of Massachusetts



Press Office: (617) 748-3139                        John Joseph Moakley United States Courthouse, Suite 9200
                                                    1 Courthouse Way
                                                    Boston, Massachusetts 02210
                                                    May 8, 2003

                                           PRESS RELEASE

                               LOGAN AIR TRAFFIC CONTROLLER INDICTED
                                FOR FIVE COUNTS OF LYING ABOUT DUI’S

       Boston, MA... A Logan Airport air traffic controller was arrested today on a federal
indictment charging him with five counts of making a false statement about his criminal record,
which included convictions for driving while intoxicated, on a form he was required to submit
under oath each year to his employer, the Federal Aviation Administration.

       United States Attorney Michael J. Sullivan and Theodore L. Doherty, Assistant Special
Agent in Charge of the U.S. Department of Transportation, Office of the Inspector General in
New England, announced today that RONALD MYLES HATCH, II, age 48, of 7 Cedarwood
Road, Lynnfield, Massachusetts, was charged in an Indictment with five counts of using a false
document knowing it to contain a false statement. HATCH was arrested this morning and
appeared before U.S. Magistrate Judge Lawrence P. Cohen at 3:00 p.m. today. He was
subsequently released on a $25,000 unsecured bond.

        The Indictment alleges that each year since 1999 through 2003, HATCH made false
statements on his annual Federal Aviation Administration Form 8500-8 by falsely representing
that he had not had any convictions involving driving while intoxicated.

       If convicted on these charges, HATCH faces up to 5 years' imprisonment, to be
followed by 1 year of supervised release, and a $250,000 fine on each of the five counts.

       HATCH will be arraigned on the charges by Magistrate Judge Cohen on Tuesday, May
20, 2003 at 2:00 p.m.

       The case was investigated by the U.S. Department of Transportation’s Office of the
Inspector General with assistance from the Federal Aviation Administration. It is being
prosecuted by Assistant U.S. Attorney Paul R. Moore in Sullivan’s Major Crimes Unit.

Press Contact: Samantha Martin, (617) 748-3139
